                                                        Memorandum
                                                         OFFICE OF THE INSPECTOR GENERAL
                      WASHINGTON, DC 20401




    DATE:   September 30, 2005

REPLY TO
 ATTN OF:   Assistant Inspector General for Audits

 SUBJECT:   Payment of Pre-employment Interview Travel Expenses
            Report Number 05-05

      TO:   Chief Financial Officer
            Chief Human Capital Officer


            During the recent Office of Inspector General (OIG) Audit of the GPO Travel
            Program, we identified a situation where a candidate for a senior position with GPO
            submitted a claim for invitational travel and apparently received reimbursement for
            travel expenses incurred by his spouse related to a pre-employment interview with
            GPO officials in Washington, D.C.

            The Federal Travel Regulations (FTR) generally govern official travel by
            employees and prospective employees of the federal government. GPO adopted the
            FTR on February 22, 2005. The FTR does not specifically allow for the payment of
            travel expenses for spouses accompanying candidates on pre-employment
            interviews. Moreover, Section 301-75.3 of the FTR requires agencies to establish
            policies and procedures governing: (1) the criteria in which individuals or positions
            qualify for payment of pre-employment interview travel expenses; (2) who
            determines that a person qualifies; and (3) who determines what expenses are
            authorized for each interviewee.

            Upon further review, we found that GPO does not have any specific policies and
            procedures governing pre-employment interview travel expenses. While the issue
            that brought this matter to our attention has been resolved, GPO should take prompt
            action to draft policies and procedures in accordance with Section 301-75.3 of the
            FTR detailing what travel expenses will be reimbursed for pre-employment
            interviews.

            In separate meetings held on September 9, 2005, with members of my staff and
            with representatives from the Chief Financial Officer (CFO) and the Chief Human
            Capital Officer (CHCO), they agreed to take the following actions on the processing
            of future pre-employment interview travel expenses:
       •   The CFO in coordination with the CHCO should establish policies and
           procedures governing pre-employment interview travel expenses in
           accordance with Sections 301-75.3(a), (b), and (c) of the FTR.

Please notify this office when the agree-upon actions have been completed. If you
have any questions regarding this report, please contact Mr. Joseph Verch,
Supervisory Auditor, at (202) 512-0065, or me at (202) 512-2009.


(original signed by)

Kevin J. Carson
Assistant Inspector General for Audits

cc:
Deputy Chief of Staff
Assistant Chief of Staff for Analysis
